NATIONAL CREDIT UNION ADMINISTRATION

    OFFICE OF INSPECTOR GENERAL



        SEMIANNUAL REPORT
                TO
           THE CONGRESS

         October 1, 2010 – March 31, 2011
TABLE OF CONTENTS

INSPECTOR GENERAL'S MESSAGE ................................................................................................................. i

THE NCUA AND OFFICE OF INSPECTOR GENERAL MISSIONS ........................................................... 1

INTRODUCTION ..................................................................................................................................................... 2

NCUA HIGHLIGHTS .............................................................................................................................................. 5

FEDERALLY INSURED CREDIT UNION HIGHLIGHTS ............................................................................. 8

LEGISLATIVE HIGHLIGHTS ............................................................................................................................... 9

OFFICE OF THE INSPECTOR GENERAL ..................................................................................................... 11

AUDIT ACTIVITY ................................................................................................................................................ 12

INVESTIGATIVE ACTIVITY ............................................................................................................................. 21

LEGISLATIVE AND REGULATORY REVIEWS .......................................................................................... 24

TABLE I: INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED COSTS ..................... 26

TABLE II: INSPECTOR GENERAL ISSUED REPORTS WITH RECOMMENDATIONS THAT
FUNDS BE PUT TO BETTER USE .................................................................................................................. 27

TABLE III: SUMMARY OF OIG ACTIVITY OCTOBER 1, 2010 THROUGH MARCH 31, 2011 ... 28

INDEX OF REPORTING REQUIREMENTS.................................................................................................. 29

APPENDIX A: NCUA SYSTEM REVIEW REPORT (SEC OIG REPORT NO. 478)............................ 30
OIG Semiannual Report                                                          October 1, 2010 – March 31, 2011




                             INSPECTOR GENERAL'S MESSAGE
                         TO THE NCUA BOARD AND THE CONGRESS

 On behalf of the Office of Inspector General (OIG) of the National Credit Union Administration (NCUA),
 I am pleased to present our Semiannual Report to Congress highlighting our accomplishments and
 ongoing work for the six-month period ending March 31, 2011. Challenges and opportunities stemming
 from the financial crisis remain our primary focus, from reviewing the supervision and regulation of
 failed corporate and natural person credit unions, to participating in comprehensive efforts—involving
 all of the Federal financial regulatory agencies and inspectors general--to ensure the future stability of
 the nation’s financial system. Since the passage of the Dodd-Frank Wall Street Reform and Consumer
 Protection Act” (Dodd-Frank) last summer, the NCUA has worked diligently to enact reforms to
 empower consumers and investors, mitigate problems identified during the financial crisis, and improve
 accountability and transparency in the credit union system. The OIG, through its audit and Material
 Loss Review (MLR) work, has endeavored simultaneously to ensure that the NCUA understands where
 mistakes were made in the past and to recommend suitable corrective actions.

 Of particular significance, during this reporting period the OIG issued a capping report that summarized
 significant findings from the first ten Material Loss Review (MLR) reports the OIG issued, as well as
 recommendations for avoiding similar mistakes and shortcomings in the future. The capping report
 identified eight areas that led to credit union failures and losses to the National Credit Union Share
 Insurance Fund (NCUSIF). The OIG made 12 specific recommendations to address these problem
 areas. Subsequent to the capping report’s issuance, the NCUA provided the OIG with a detailed
 chronology of corrective actions it has already taken to address each of the recommendations, as well
 as corrective actions in progress and anticipated, along with targeted completion dates.

 Moreover, during this period the OIG completed and reported on MLRs of two failed corporate credit
 unions: U.S. Central Federal Credit Union (U.S. Central) of Lenexa, Kansas, and Western Corporate
 Federal Credit Union (WesCorp) of San Dimas, California. Drawing on the mistakes and shortcomings
 that the MLRs identified, the NCUA concurrently developed a Corporate Resolution System plan
 consisting of a comprehensive three phase Stabilize, Resolve, and Reform strategy. The Reform
 phase involved the agency’s implementation of a new regulatory framework for corporate credit unions
 that will, we believe, go far in addressing the deficiencies we noted during our MLR work on both
 corporates.

 The OIG also conducted a MLR of one natural person credit union during the reporting period, St. Paul
 Croatian Federal Credit Union (St. Paul) of Eastlake, Ohio, where fraud was the direct cause of the
 credit union’s failure. In addition to the fraud, however, we found that St. Paul management failed to
 implement proper controls and oversight, and NCUA examiners failed to adequately address the risks
 to St. Paul operations. In response to the MLR report, the NCUA stated its commitment to improving its

                                                     i
OIG Semiannual Report                                                            October 1, 2010 – March 31, 2011


 existing supervision mechanisms and providing necessary staff training to enhance risk monitoring and
 supervision processes. Moreover, the agency took steps to increase the number of administrative
 actions on credit unions that were taking excessive risks.

 The OIG staff has also expended much effort and time during this reporting period in making
 presentations and otherwise offering a forum for NCUA examiners, supervisors, state regulatory
 authorities, credit union industry representatives, and others to learn and engage in constructive
 dialogue about the MLR process, what lessons can be learned from the information set forth in the MLR
 reports, and emerging issues that will impact our collective and individual work and responsibilities.

 Finally, Dodd-Frank created the Financial Stability Oversight Council (FSOC) to monitor emerging
 threats to financial stability, designate for supervision those non-bank financial firms and market utilities
 that could pose threats to financial stability, and identify gaps in the financial regulatory framework. The
 FSOC includes representatives from the key Federal financial regulatory agencies, including the NCUA.
 At the same time, Dodd-Frank established the Council of Inspectors General on Financial Oversight
 (CIGFO), which consists of IGs for the Federal agencies represented on the FSOC, as well as the IG
 for the Department of Housing and Urban Development and the Special IG for the Troubled Asset
 Relief Program. Under the leadership of the Treasury IG, the CIGFO meets at least quarterly to share
 information among the IGs and to discuss the ongoing work of each IG, with a focus on concerns that
 may apply to the broader financial sector and ways to improve financial oversight. In addition, the
 CIGFO is required to annually issue a report that highlights the IG’s concerns and recommendations,
 as well as issues that may apply to the broader financial sector. I have participated in those meetings,
 and my staff and I are actively involved in drafting portions of the annual report.

 We look forward to working with the NCUA Board and Congress to accomplish the new requirements of
 Dodd-Frank and to enhance the economy, efficiency, and effectiveness of the NCUA so that it may
 better achieve its mission.




                                           William A. DeSarno
                                           Inspector General




                                                      ii
OIG Semiannual Report                                                      October 1, 2010 – March 31, 2011




                                       THE NCUA MISSION

 NCUA’s charge is to provide, through regulation and supervision, a safe and sound credit union system
 which promotes confidence in the national system of cooperative credit.




                        THE OFFICE OF INSPECTOR GENERAL MISSION

 The OIG promotes the economy, efficiency, and effectiveness of NCUA programs and operations, and
 detects and deters fraud, waste, and abuse, thereby supporting the NCUA’s mission of monitoring and
 promoting safe and sound federally insured credit unions.


 We accomplish our mission by conducting independent audits, investigations, and other activities, and
 by keeping the NCUA Board and the Congress fully and currently informed of our work.




                                                   1
OIG Semiannual Report                                                         October 1, 2010 – March 31, 2011




                                          INTRODUCTION

 The NCUA was established as an independent, federal regulatory agency on March 10, 1970. The
 agency is responsible for chartering, examining, supervising, and insuring federal credit unions. It also
 insures state-chartered credit unions that have applied for insurance and have met National Credit
 Union Share Insurance requirements. The NCUA is funded by the credit unions it supervises and
 insures. As of December 31, 2010, the NCUA was supervising and insuring 4,589 federal credit unions
 and insuring 2,750 state-chartered credit unions, a total of 7339 institutions. This represents a decline
 of 125 federal and 90 state-chartered institutions since December 31, 2009, for a total decline of 215
 credit unions nationwide, primarily as a result of mergers and liquidations.




                                    Federally Insured Credit Unions


                  9000

                  8000

                  7000      3173
                                   3065
                                              2959       2840
                  6000                                            2750

                  5000
                                                                                           FISCUs
                  4000                                                                     FCUs
                  3000
                            5189   5036       4847       4714     4589
                  2000

                  1000

                        0
                            2006   2007       2008       2009     2010




 The NCUA operates under the direction of a Board composed of three members. Board members are
 appointed by the President and confirmed by the Senate. They serve six-year terms. Terms are
 staggered, so that one term expires every two years. The Board is responsible for the management of
 the NCUA, including the NCUA Operating Fund, the Share Insurance Fund, the Central Liquidity
 Facility, the Community Development Revolving Loan Fund, and the Temporary Corporate Credit
 Union Stabilization Fund.




                                                     2
OIG Semiannual Report                                                        October 1, 2010 – March 31, 2011


 The NCUA executes its program through its central office in Alexandria, Virginia and regional offices in
 Albany, New York; Alexandria, Virginia; Atlanta, Georgia; Austin, Texas; and Tempe, Arizona. The
 NCUA also operates the Asset Management and Assistance Center (AMAC) in Austin, Texas. Please
 refer to the NCUA organizational chart below.




                                                    3
OIG Semiannual Report                                                          October 1, 2010 – March 31, 2011


     The NCUA Board adopted its 2011 budget of $225,403,988 on November 18, 2010. The Full-
     Time Equivalent (FTE) staffing authorization for 2011 is 1,209 representing an increase of 97
     FTEs from 2010.




                                                NCUA Budget Dollars
                                  250


                                  200


                                  150
                  Millions




                                  100


                                   50


                                    0
                                         2007   2008         2009       2010        2011




                                                NCUA Authorized Staff
                                  1250
                                  1200
                                  1150
                Employees (FTE)




                                  1100
                                  1050
                                  1000
                                   950
                                   900
                                   850
                                         2007    2008        2009       2010        2011




                                                         4
OIG Semiannual Report                                                           October 1, 2010 – March 31, 2011




                                         NCUA HIGHLIGHTS

 NCUA Works to Implement Dodd-Frank Initiatives

 This year NCUA, along with the other Federal financial regulatory agencies, has begun implementing
 the Dodd-Frank Wall Street Reform and Consumer Protection Act of 2010 (Dodd-Frank). The law
 aims to empower consumers and investors, mitigate problems identified during the financial crisis, and
 ensure the future stability of the nation’s financial system. Like the other financial regulators, NCUA
 must issue new rules, revise some existing regulations, and take on additional duties. Recently,
 NCUA has focused on implementing the following changes:

        Interchange Fee Caps: Dodd-Frank requires the Board of Governors of the Federal Reserve
         (Federal Reserve) to consult with NCUA in crafting new rules governing fee caps on debit card
         interchange transactions. In order to protect the solvency of smaller credit unions, NCUA
         recently called for the adoption of a final rule containing meaningful exemptions for issuers with
         less than $10 billion in assets.

        Credit Ratings: The inflated grades of credit rating agencies exacerbated the financial crisis.
         Dodd-Frank, therefore, requires all regulators to replace credit rating rule references with new
         creditworthiness standards that regulated entities must follow. In February, the NCUA Board
         approved a proposed rule implementing this mandate.

        Share Insurance Protection: Dodd-Frank permanently raised the maximum of share insurance
         protection to $250,000 per account. NCUA satisfied this requirement with a rule revision last
         September. NCUA is working on final rules for unlimited coverage for noninterest-bearing
         accounts.

        Incentive-Based Compensation: Incentive-based compensation packages led many financial
         executives and professionals to favor short-term self gain over long-term financial stability.
         Dodd-Frank requires credit unions and other regulated entities with more than $1 billion in
         assets to disclose the structures of their incentive-based compensation practices. Credit
         unions with more than $10 billion in assets have additional obligations. In February 2011,
         NCUA proposed a new rule to implement these changes.

        Financial Stability Oversight Council (FSOC): FSOC works to monitor and ensure the stability of
         the U.S. financial system. As one of 10 voting members, NCUA has new responsibilities, not
         only to raise the distinctive perspective of credit unions within FSOC, but also to look more
         broadly at the threats facing the global financial system.

        Office of Minority and Women Inclusion (OMWI): Created in January 2011 in response to Dodd-
         Frank, OMWI will monitor diversity of employment at NCUA and in credit unions. OMWI will
         also promote the use of minority and women contractors at NCUA.




                                                      5
OIG Semiannual Report                                                            October 1, 2010 – March 31, 2011


        Consumer Financial Protection Bureau (CFPB): Because too many American families suffered
         devastating losses in the last decade as a result of predatory financial products, Congress
         created CFPB. CFPB is charged with writing new consumer rules and supervising consumer
         compliance at financial institutions with more than $10 billion in assets. NCUA has begun
         working with CFPB to transfer employees, share data, and plan for coordinated exams. By
         providing comments during the rulemaking process, credit unions are assisting NCUA in
         crafting rules that will result in many changes in the way credit unions operate.


 Chairman Matz Renews Call for Supplemental Capital

 In a January 14, 2011, letter to the Chairmen and Ranking Members of the House Financial Services
 and Senate Banking Committees, NCUA Chairman Debbie Matz called for changes to the net worth
 provisions of the Federal Credit Union Act that would enable financially strong credit unions to
 continue offering a full range of financial service products to consumers without inadvertently reducing
 net-worth and triggering Prompt Corrective Action (PCA). Chairman Matz pointed out that some
 financially healthy, well-capitalized credit unions that offer desirable products and services are
 discouraged from marketing them out of concern that attracting share deposits from new and existing
 members will inflate the credit union’s asset base, thus diluting its net worth for purposes of PCA.
 Chairman Matz specifically proposed two reforms that would enable NCUA to reverse the disincentive
 for credit unions to accept deposits from their members:

        Allow qualifying credit unions to exclude assets that carry zero risk, such as short-term U.S.
         Treasury securities, from the definition of total assets. NCUA would set a minimum net worth
         requirement, and would also determine that share growth is the cause of declining net-worth,
         not poor management or unsafe practices, before a credit union would be allowed to exercise
         this exclusion; and

        Authorize qualifying credit unions to issue supplemental capital. The form of supplemental
         capital would be subject to strict regulatory prescriptions that address safety and soundness
         criteria, protect investors, and preserve the cooperative credit union governance model.

     Chairman Matz indicated that Congress already permits low-income designated credit unions to
     offer uninsured supplemental capital accounts to non-members. Modifying the Federal Credit
     Union Act, to permit qualifying credit unions to offer uninsured alternative capital instruments
     subject to regulatory restrictions, and expanding the Act’s definition of ―net worth‖ to include those
     instruments would, Matz explained, allow well-managed credit unions to better manage net worth
     levels under varying economic conditions.

     Chairman Matz’s letter went on to state that one of the principal purposes of PCA was to control
     accelerated, unmanageable growth of credit union assets, and that NCUA’s implementing
     regulations respected that goal. Moreover, she explained, it was ―[f]or that reason that in the
     course of implementing PCA over the last 9 years, NCUA did not propose statutory remedies in
     response to occasional periods of reluctance by credit unions to grow assets. That reluctance in
     the present period of national economic distress has become acute, however, warranting a
     statutory remedy.‖ Chairman Matz emphasized that it was never the objective of PCA to
     discourage manageable asset growth by financially healthy credit unions in times of economic
     distress. ―To the extent PCA does so now,‖ Matz asserted, ―it does not contribute to the objective
     of resolving the problems of insured credit unions; it unintentionally creates a problem for them,
     which redounds to the detriment of consumers.‖


                                                      6
OIG Semiannual Report                                                            October 1, 2010 – March 31, 2011


 NCUA Sets Strategic Goals for 2011

 At its January 13, 2011, board meeting, the NCUA Board approved the NCUA Annual Performance
 Budget (APB), which serves as the agency’s annual plan. The plan outlines NCUA objectives,
 strategies, and initiatives for 2011. It also provides guidance and serves as a tool to illustrate how
 staff contributes to meeting agency goals and objectives. High priority goals include monitoring risks
 in federally insured credit unions and continuing to stabilize the corporate credit union system. A
 cross-agency working group developed the initial draft APB using input from all NCUA offices and
 regions. Regional and central office leadership provided concurrence. Some significant
 enhancements to NCUA’s APB include: (1) a description of agency programs and offices that
 contribute to goals; (2) a clearer connection between annual objectives and strategic goals; and (3)
 the addition of annual measures for each objective in addition to strategic measures. Overall, the plan
 aims to serve as an improved management tool and offer the public and staff increased transparency.


 Board Member Hyland Outlines Corporate Credit Union Resolution to AICPA

 At the American Institute of Certified Public Accountants’ (AICPA) annual ―Conference on Credit
 Unions,‖ held on October 25, 2010, NCUA Board Member Gigi Hyland told the AICPA that NCUA is
 working to assist the credit union industry in weathering its ―most significant financial and structural
 challenge‖ presented by a ―perfect storm of over-concentration in private-label, mortgage-backed
 securities held by several large corporate credit unions.‖ Board Member Hyland characterized the
 steps the agency took in its resolution plan as a ―comprehensive solution to the problems afflicting
 corporates.‖ According to Hyland, the plan puts consumers first and ensures that there will be no loss
 to taxpayers. Hyland emphasized that the plan was not a bailout, stating that it was being paid for
 entirely by credit unions. Specifically, Hyland explained that credit unions would pay the bill, the
 NCUA had taken over the failed corporates, and the NCUA was in the process of phasing them out.
 Pointing to the future of the corporate credit union system, Board Member Hyland noted that ―while
 credit unions do not have to make decisions immediately, they need to be engaged to begin thinking
 about the future and working on a transition strategy.‖


 Board Member Fryzel Emphasizes Three Key Stages of Corporate Resolution Plan

 In an address to the New Jersey Credit Union League on October 4, 2010, NCUA Board Member
 Michael Fryzel emphasized the three key stages of the NCUA’s Corporate Resolution Plan. Board
 Member Fryzel explained to the annual gathering of over 860 credit union volunteers and
 professionals that with the Corporate Resolution Plan’s three-stage process—stabilization, resolution,
 and reform—the NCUA envisioned the way toward a future of stronger corporate credit unions. Fryzel
 highlighted the NCUA’s aim to fulfill four specific principles that the agency set forth at the beginning of
 the corporate crisis: (1) prevent any interruption in services to consumer credit unions; (2) preserve
 public confidence in the credit union system; (3) manage the situation to achieve the lowest long-term
 cost; and (4) make an orderly transition to a new regulatory regime, based on the principle that
 consumer credit unions should determine the new contours of the realigned corporate system. Board
 Member Fryzel concluded by stating his confidence that ―the new resolution plan will strengthen the
 system’s safeguards validating depositors’ confidence in a well-regulated system that puts the
 interests of consumers first.‖




                                                       7
OIG Semiannual Report                                                         October 1, 2010 – March 31, 2011




                        FEDERALLY INSURED CREDIT UNION HIGHLIGHTS


 Credit unions submit quarterly call reports (financial and operational data) to the NCUA. An NCUA staff
 assessment of the December 31, 2010, quarterly call reports submitted by all federally insured credit
 unions found that key financial indicators show improvement.

 Key Financial Indicators Showing Improvement
 Looking at the December 31, 2010 quarterly statistics for major balance sheet items and key ratios
 shows the following for the nation’s 7,339 federally insured credit unions: assets grew 3.4 percent; net
 worth to assets ratio increased from 9.89 to 10.06 percent; the loan to share ratio decreased from 76.06
 percent to 71.82 percent. However, the delinquency ratio decreased from 1.84 to 1.74 percent; and
 credit union return on average assets increased from .18 percent to .51 percent.

 Savings Shifting to Money Market Accounts
 Total share accounts increased 4.49 percent. Money market shares increased 11.0 percent. Regular
 shares comprise 28.03 percent of total share accounts; share certificates comprise 27.14 percent;
 money market shares comprise 22.34 percent; share draft accounts comprise 11.45 percent; and all
 other share accounts comprise 11.04 percent.

 Loans Decreased Slightly
 Loan decline of 1.34 percent resulted in a decrease in total loans by $7.68 billion. Total net loans of
 $555 billion comprise 61 percent of credit union assets. First mortgage real estate loans are the largest
 single asset category with $223.05 billion accounting for 39.49 percent of all loans. Other real estate
 loans of $86.57 billion account for 15.33 percent of all loans. Used car loans of $101.52 billion were
 17.97 percent of all loans, while new car loans amounted to $62.89 billion or 11.13 percent of total
 loans. Credit card loans totaled $35.96 billion or 6.37 percent of total loans and other loans totaled
 $54.84 billion for 9.71 percent of total loans.




                                                    8
OIG Semiannual Report                                                         October 1, 2010 – March 31, 2011




                                   LEGISLATIVE HIGHLIGHTS

 NCUA Joins Federal Financial Regulatory Agencies in Seeking Comments on Proposed Rule on
 Incentive Compensation
 On March 30, 2011, NCUA joined six other Federal financial regulatory agencies (Board of Governors
 of the Federal Reserve System; Federal Deposit Insurance Company; Federal Housing Finance
 Agency; Office of the Comptroller of the Currency; Office of Thrift Supervision; and the Securities and
 Exchange Commission) in requesting comment on a joint proposed rule to ensure that regulated
 financial institutions design their incentive compensation arrangements to take account of risk. The
 proposed rule, which is being issued pursuant to the Dodd-Frank Wall Street Reform and Consumer
 Protection Act (Dodd-Frank), would apply to certain financial institutions with more than $1 billion in
 assets. It also contains heightened standards for the largest of these institutions. In prohibiting
 incentive compensation arrangements that could encourage inappropriate risks, the proposal would
 require compensation practices at regulated financial institutions to be consistent with three key
 principles—that incentive compensation arrangements should appropriately balance risk and financial
 rewards, be compatible with effective controls and risk management, and be supported by strong
 corporate governance. The proposed rule complements guidance previously issued by the agencies,
 including guidance on sound incentive compensation policies issued by the banking agencies last
 year.

 The agencies are proposing that financial institutions with $1 billion or more in assets be required to
 have policies and procedures to ensure compliance with the requirements of the rule, and submit an
 annual report to their federal regulator describing the structure of the incentive compensation
 arrangements. The agencies are proposing that larger financial institutions defer at least 50 percent of
 the incentive compensation of certain officers for at least three years and that the amounts ultimately
 paid reflect losses or other aspects of performance over time. For credit unions, large financial
 institutions would be defined as those with $10 billion or more in assets. In February 2011, NCUA
 proposed a new rule to implement these changes.

 Senator Udall Introduces S. 509, Allowing MBL Cap Increase
 On March 8, 2011, Sen. Mark Udall (D-Colo.) introduced S. 509, the Small Business Lending
 Enhancement Act.‖ The Act would allow a gradual increase in eligible credit unions’ Member
 Business Lending (MBL) cap from 12.25 percent of assets to 27.5 percent, in accordance with strict
 safety and soundness measures. It awaits the action of the Senate Banking Committee. The bill
 mirrors provisions proposed in 2010, which Congress failed to act on. In order for state and federally
 chartered credit unions to qualify for the 27.5 percent cap, they would have to, among other
 provisions:

        Be capitalized with at least a 7 percent net worth ratio;
        Have outstanding MBLs of at least 80 percent of the current cap for a year;
        Boast five or more years experience in MBLs and demonstrate sound loan underwriting and
         servicing; and
        Expand their MBL portfolios by no more than 30 percent in any given year.

 NCUA Chairman Matz, in a letter dated February 24, 2011, to Treasury Secretary Timothy Geithner,
 assured him that if a statutory increase in the MBL cap should become law, NCUA is prepared to

                                                    9
OIG Semiannual Report                                                           October 1, 2010 – March 31, 2011


 enhance the regulation of business lending. Specifically, Chairman Matz advised Secretary Geithner
 that ―[i]f legislative changes increase or eliminate the current aggregate MBL cap, NCUA would
 promptly revise [its] regulation to ensure that additional capacity in the credit union system would not
 result in unintended safety and soundness concerns.‖ The letter also outlined ongoing NCUA efforts
 to monitor MBL activities, and cited January 2011 guidance to credit unions that reiterated the
 importance of stringent risk management practices and appropriate staff expertise.

 NCUA Issues Proposed Rule in Response to “Toolbox” Legislation
 On January 4, 2011, President Obama signed into law (P.L. 111-382), the NCUA-recommended
 ―toolbox‖ legislation. When implemented, the new law will provide the NCUA with new tools to
 address both troubled individual credit unions and the larger corporate credit union crisis. The
 legislation, which alters the Federal Credit Union Act by permitting the NCUA to make payments to the
 Temporary Corporate Credit Union Stabilization Fund (TCCUSF) without borrowing from the U.S.
 Treasury, was approved on the final day of the 111th Congress. The legislation also clarifies that the
 equity ratio of the National Credit Union Share Insurance Fund (NCUSIF) is based solely on
 unconsolidated financial statements of the NCUSIF and grant credit unions the ability to count Section
 208 assistance as net worth for the purposes of Prompt Corrective Action (PCA).

 To implement the new law, the NCUA, at its March 17, 2011 Board meeting, issued a proposed rule to
 amend the definition of ―net worth‖ in the agency’s rule on Prompt Corrective Action (PCA). The
 proposed rule would allow for the inclusion of NCUA-provided Section 208 assistance that contains
 minimum elements of equity in a credit union’s net worth for PCA purposes. This change will facilitate
 NCUA’s ability to conduct assisted mergers of credit unions. The proposed rule also makes an
 additional technical change to the definition of net worth outside of the scope of the new law. This
 proposed fix would eliminate the double counting of net worth in a combination resulting in a bargain
 purchase gain. Finally, the proposal would revise the definition of ―equity ratio‖ as it appears in
 NCUA’s regulation on insurance requirements. Under the proposed rule, NCUA would calculate the
 NCUSIF’s equity ratio using the financial statements of the NCUSIF alone, without consolidation or
 combination with the financial statements of any other fund or entity.

 Chairman Matz Calls for Exemptions in Fed Interchange Rulemaking
 In a February 16, 2011, letter to Federal Reserve Chairman Ben Bernanke, NCUA Chairman Matz
 called upon the Federal Reserve to craft a debit card interchange rule that reflects Dodd-Frank Act
 language addressing small institution pricing issues. Dodd-Frank requires the Federal Reserve to
 consult with NCUA and other financial institution regulators in formulating new rules governing debit
 card interchange transactions. Chairman Matz called for the regulation implementing the statutory
 interchange provision to contain ―meaningful exemptions for smaller card issuers.‖ Chairman Matz
 added, ―The [Dodd-Frank] Act explicitly exempts card issuers with total assets under $10 billion from
 any interchange fee regulation. In addition to exempting small issuers from the fee limits, I believe it is
 important that small issuers be exempted from requirements related to network exclusivity and routing
 restrictions. Such action would be consistent with the exemption from the interchange transaction fee
 rulemaking, which is intended to shield smaller institutions from the costs of the Act.‖ Chairman Matz
 also noted that ―[s]eventeen percent or nearly 1,000 federally insured credit unions offering ATM/Debit
 card services possess total assets of less than $10 million, and more than 3,000 (59%) possess total
 assets less than $50 million. The current rule’s prohibitions against network exclusivity and merchant
 routing restrictions could significantly increase both fixed and variable costs for these small
 institutions, resulting in an inability to remain competitive with larger card issuers.‖ The new rule will
 take effect in July 2011.


                                                     10
OIG Semiannual Report                                                        October 1, 2010 – March 31, 2011




                            OFFICE OF THE INSPECTOR GENERAL

 The Office of the Inspector General was established at the NCUA in 1989 under the authority of the
 Inspector General Act of 1978, as amended. The staff consists of the Inspector General, Deputy
 Inspector General, Counsel to the Inspector General, Director of Investigations, three Senior Auditors,
 Senior Information Technology Auditor, and Office Manager.

 The Inspector General reports to, and is under the general supervision of, the NCUA Board. The
 Inspector General is responsible for:

         1. Conducting, supervising, and coordinating audits and investigations of all NCUA programs
            and operations;

         2. Reviewing policies and procedures to ensure efficient and economic operations as well as
            preventing and detecting fraud, waste, and abuse;

         3. Reviewing existing and proposed legislation and regulations to evaluate their impact on the
            economic and efficient administration of agency programs; and

         4. Keeping the NCUA Board and the Congress apprised of significant findings and
            recommendations.


                                  NCUA OIG ORGANIZATIONAL CHART




                                                   11
OIG Semiannual Report                                                         October 1, 2010 – March 31, 2011




                                          AUDIT ACTIVITY

     Audit Reports Issued

 OIG-10-16 –October 7, 2010
 Material Loss Review of St. Paul Croatian Federal Credit Union
 The National Credit Union Administration (NCUA) Office of Inspector General (OIG) conducted a
 Material Loss Review (MLR) of St. Paul Croatian Federal Credit Union (St. Paul).

 We determined a suspected fraud was the direct cause of St. Paul’s failure. As of December 31,
 2009, the credit union had approximately $238.8 million in total assets. St. Paul had a substantial
 majority of its assets in loans that were supposedly secured by members’ shares. During the
 December 31, 2009, examination, NCUA found the majority of the loans were not actually share
 secured and a number of them were allegedly fraudulent. NCUA also found that St. Paul’s chief
 executive officer (CEO) allegedly manipulated loan records and masked the suspected loan fraud
 by constantly refinancing certain loans or making advance payment on those loans. NCUA
 projected an estimated loss of $170 million to NCUSIF.

 We also determined that credit union management failed to meet their required obligations to
 implement proper internal controls and oversight. Specifically, management did not (1) ensure
 adequate internal controls were in place; (2) ensure adequate policies were in place and adhered
 to; and (3) resolve prior examiner findings in a timely fashion.

 We further determined NCUA examiners did not adequately evaluate the risks to St. Paul
 operations. Specifically, examiners did not (1) thoroughly evaluate the credit union’s internal
 controls when assessing transaction risk; (2) ensure credit union management took corrective
 action on repetitive Document of Resolution issues; and (3) expand examination procedures when
 red flags indicated higher risks to the credit union.

 This report does not contain recommendations, but provides observations and suggestions.
 However, the OIG issued a Material Loss Review Capping Report with recommendations based on
 issues raised in this report as well as the other nine Material Loss Reviews conducted by the OIG.

 OIG-10-17– October 18, 2010
 Material Loss Review of U.S. Central Federal Credit Union
 The National Credit Union Administration (NCUA) Office of Inspector General (OIG) contracted with
 Crowe Horwath LLP (Crowe) to conduct a Material Loss Review (MLR) of U.S. Central Corporate
 Credit Union (U.S. Central), a federally chartered credit union.

 Our review determined U.S. Central’s management and Board of Directors (Board) contributed to
 the conservatorship of U.S. Central and resulting material loss to the NCUA’s Temporary Corporate
 Credit Union Stabilization Fund (TCCUSF). Specifically, management and the Board’s inadequate
 oversight resulted in U.S. Central purchasing significant holdings of private label subprime and ALT-
 A mortgage-backed securities that exposed the credit union to excessive amounts of financial risk.



                                                    12
OIG Semiannual Report                                                            October 1, 2010 – March 31, 2011


 U.S. Central’s management and Board failed to identify and manage this risk exposure prior to the
 mortgage-backed securities market dislocation that occurred in mid-2007.

 U.S. Central’s aggressive growth strategy placed increased pressure on the credit union to produce
 higher levels of revenue in order to increase or maintain sufficient capital. In an effort to maintain or
 increase net income and continue to grow its retained earnings, U.S. Central management
 increased its offerings of higher yielding investments for its members to invest in, such as
 mortgage-backed securities. U.S. Central, in turn, significantly expanded its investments in higher
 yielding, higher risk subprime mortgage-backed securities, to support this growth strategy. We
 believe this growth strategy and accompanying investment decisions to purchase higher yielding
 securities to such extraordinary levels was contradictory to U.S. Central’s fundamental purpose as a
 wholesale corporate credit union, which was serving as a secure investment option and a source of
 liquidity for retail corporate credit unions, and support for the not for profit credit union structure.

 We determined U.S. Central’s management and Board failed to recognize the substantial risk they
 undertook with significant investments in complex mortgage-backed securities collateralized by
 subprime assets. We also determined management allowed the investments in mortgage-backed
 products to represent a significant concentration compared to net worth and failed to impose
 prudent limits in these securities.

 We believe stronger and timelier supervisory action regarding U.S. Central’s concentration in
 mortgage-backed securities could have resulted in a reduced loss to the NCUSIF. Although NCUA
 does not provide specific guidance regarding sector concentration limits, we believe NCUA staff
 should have recognized the risk exposure that U.S. Central’s significant concentration in mortgage-
 backed securities represented earlier than 2007 and 2008.

 OIG-10-18 – November 15, 2010
 Independent Evaluation of NCUA’s Compliance with the FISMA 2010
 The Office of Inspector General (OIG) for the National Credit Union Administration (NCUA)
 engaged Richard S. Carson and Associates, Inc (Carson Associates), to independently evaluate its
 information systems and security program and controls for compliance with the Federal Information
 Security Management Act (FISMA), Title III of the E-Government Act of 2002.

 Carson Associates evaluated NCUA’s security program through interviews, documentation reviews,
 technical configuration reviews, and sample testing. We evaluated NCUA against standards and
 requirements for federal government agencies such as those provided through FISMA, the
 Government Accountability Office’s Federal Information System Controls Audit Manual (FISCAM),
 National Institute of Standards and Technology (NIST) Special Publications (SPs), and Office of
 Management and Budget (OMB) memoranda.

 The NCUA has worked to further strengthen its information technology (IT) security program during
 Fiscal Year (FY) 2010. NCUA’s accomplishments during this period include:
      Enhanced change control management system, adding security impact analysis for its IT
         systems.
      Use of an SCAP-validated scanner to verify its workstation configurations.
      Enhanced policies and procedures.
      Completed e-Authentication risk assessments for its two e-Authentication systems.
      Completed security control assessments for five of its six FISMA systems.
      Signed Authorizations To Operate for all six Certification and Accreditation packages.

                                                      13
OIG Semiannual Report                                                              October 1, 2010 – March 31, 2011


        Improved Plan of Action and Milestones process.
        Updated Privacy Policy on NCUA.gov to describe use of third-party Web sites and
         applications.

 We identified five areas remaining from last year’s FISMA evaluation that NCUA officials need to
 address:

            Improve its security configuration program.
            Improve its contingency planning program for its FISMA systems.
            Enhance its procedures for ensuring terminated users and inactive user accounts are
             removed from its systems.
            Update the Service Level Agreement for its Intrusion Detection System.
            Implement continuing education requirements for its information technology employees.

 In addition, we identified six new findings this year where NCUA could improve IT security controls.
 Specifically, NCUA needs to:

            Perform a security control assessment for its General Support System.
            Complete an overall Business Impact Assessment of its FISMA systems.
            Improve its oversight of external service providers.
            Improve its remote access controls.
            Improve its Plan of Action and Milestone process.
            Review its use of Personally Identifiable Information and Social Security Numbers.

 OIG-10-19 –November 16, 2010
 Material Loss Review of Western Corporate (WesCorp) Federal Credit Union
 The National Credit Union Administration (NCUA) Office of Inspector General (OIG) conducted a
 Material Loss Review of Western Corporate Federal Credit Union (WesCorp).

 We determined WesCorp’s management and Board of Directors (management) did not implement
 appropriate risk management practices to adequately limit or control significant risks in its
 investment strategy. Specifically, although management invested in high investment grade
 securities (AAA and AA), management implemented an aggressive investment strategy with
 unreasonable limits in place that allowed for excessive investments in privately issued residential
 mortgage backed securities (RMBS). Management’s actions allowed a substantial investment
 portfolio of privately issued RMBS, resulting in a significant concentration risk, and left WesCorp
 increasingly vulnerable to significant credit risk, market risk, and liquidity risk through the portfolio’s
 exposure to economic conditions in the residential real estate sector. WesCorp management’s
 actions contributed directly to conditions that resulted in NCUA placing the corporate under federal
 conservatorship on March 20, 2009 and an expected loss to the Temporary Corporate Credit Union
 Stabilization Fund (Stabilization Fund) of $5.59 billion.

 In addition, we determined Office of Corporate Credit Unions’ examiners (OCCU examiners) did not
 adequately and aggressively address WesCorp’s increasing concentration of privately-issued
 RMBS and the increasing exposure of WesCorp’s balance sheet to credit, market, and liquidity
 risks. Specifically, we determined OCCU examiners did not critique or respond in a timely manner
 to WesCorp’s growing concentrations of privately-issued RMBS in general and in particular RMBS:
 (1) backed by higher risk mortgage collateral; (2) concentrated in California; and (3) issued,


                                                       14
OIG Semiannual Report                                                         October 1, 2010 – March 31, 2011


 originated, and serviced by Countrywide. This occurred because NCUA did not have appropriate
 regulatory support in place--in the form of more specific investment concentration limits--to address
 the growing and risky concentration. As a result, OCCU examiners did not have the regulatory
 leverage to limit or stop the growth of WesCorp’s purchase of privately issued RMBS, which would
 have likely mitigated WesCorp’s severely distressed financial condition and expected loss as a
 result of the extended credit market dislocation, and thus averted NCUA’s ultimate conservatorship
 of WesCorp.

 OIG-10-20 –November 23, 2010
 OIG Capping Report on Material Loss Reviews
 The purpose of this report is to summarize significant findings from the first ten material loss
 reviews (MLRs) issued by the NCUA Office of Inspector General. The Federal Credit Union Act
 requires the OIG to conduct a MLR of an insured credit union if the loss to the National Credit Union
 Share Insurance Fund exceeds $25 million and an amount equal to 10 percent of the total assets of
 the credit union at the time at which the NCUA Board initiated assistance or was appointed
 liquidating agent. We issued ten MLR reports during the period from November 2008 through
 November 2010. Based on similarities and trends found in the first ten MLRs completed by the
 OIG, we made 12 recommendations to NCUA management for corrective action. Management
 agreed with all recommendations and has either taken or is planning to take corrective action to
 address all recommendations.




                                                    15
OIG Semiannual Report                                                         October 1, 2010 – March 31, 2011




     AUDITS IN PROGRESS

 NCUA Financial Statements 2010
 Our current contracting audit firm, KPMG, is working on the 2010 financial statements of the NCUA
 Operating Fund, National Credit Union Share Insurance Fund, the Central Liquidity Facility, the
 Community Development Revolving Loan Fund and the Temporary Corporate Credit Union
 Stabilization Fund (TCCUSF).

 The NCUA Operating Fund was established as a revolving fund managed by the NCUA Board for the
 purpose of providing administration and service to the federal credit union system. The National Credit
 Union Share Insurance Fund was established as a revolving fund managed by the NCUA Board to
 insure member share deposits in all Federal credit unions and qualifying state credit unions. The CLF
 was established as a mixed ownership government corporation managed by the NCUA Board to
 improve general financial stability by meeting the liquidity needs of credit unions. The Community
 Development Revolving Loan Fund’s purpose is to stimulate economic activities in the communities
 served by low-income credit unions. This in turn will result in increased income, ownership and
 employment opportunities for low-wealth residents and other economic growth. The TCCUSF,
 established in 2009, allows NCUA to borrow money from the Treasury to pay for corporate credit union
 losses, and then pay back the Treasury over time with funds obtained from assessments on federally
 insured credit unions. We expect to issue our report in April 2011.

 Material Loss Reviews of Constitution, Members United and Southwest Corporate Federal
 Credit Unions
 The FCU Act requires the NCUA Office of Inspector General (OIG) to conduct a material loss review
 (MLR) of an insured credit union if the loss exceeds $25 million and an amount equal to 10 percent of
 the total assets of the credit union at the time at which the Board initiated assistance or was appointed
 liquidating agent. In addition, the OIG may perform a material loss review on selected cases that
 caused a loss of less than $25,000,000 at the discretion of the Inspector General. (See next section of
 this semiannual report titled ―Report on Credit Union Losses Not Reaching Materiality Level of $25
 Million.‖)

 The OIG was notified by NCUA that the losses incurred by these credit unions had exceeded the
 statutory requirements, triggering a material loss review by the OIG. NCUA determined that the
 Constitution, Members United and Southwest Corporate credit unions’ portfolios were reasonably likely
 to sustain credit losses amounting to approximately $145 million, $400 million and $980 million,
 respectively. The material loss review objectives were to (1) determine the cause(s) for the
 conservatorships of these corporate credit unions and the resulting losses to the Temporary Corporate
 Credit Union Stabilization Fund (TCCUSF), (2) assess supervision of the corporate credit unions, and
 (3) make appropriate recommendations to prevent future losses. We analyzed NCUA examination and
 supervision reports and related correspondence; interviewed management and staff from the NCUA
 Office of Corporate Credit Unions; and reviewed NCUA guides, policies and procedures, NCUA Call
 Reports, and NCUA Financial Performance Reports (FPRs). We expect to issue the final reports in
 July 2011.




                                                    16
OIG Semiannual Report                                                      October 1, 2010 – March 31, 2011


 Material Loss Review of Beehive and Certified Federal Credit Unions
 The National Credit Union Administration (NCUA) Office of Inspector General (OIG) is conducting a
 Material Loss Review of Beehive and Certified Federal Credit Unions. We are reviewing both these
 losses to (1) determine the cause(s) of the credit union’s failure and the resulting loss to the
 National Credit Union Share Insurance Fund (NCUSIF); and (2) assess NCUA’s supervision of the
 credit union. To achieve these objectives, we analyzed NCUA examination and supervision reports
 and related correspondence; interviewed management and staff from NCUA Region; and reviewed
 NCUA guidance, policies and procedures, NCUA Call Reports, and Financial Performance Reports.
 We expect to issue the final reports in June 2011.

 Review of Building Security at NCUA’s Central Office
 The objective of our review was to assess the adequacy of physical building security
 measures at NCUA’s Central Office. Within this objective, we placed a particular emphasis
 upon reviewing building security access and controls, specifically related to: (1) facility
 entrance security; (2) interior security; (3) security systems; and (4) security operations and
 administration. We issued a draft report to NCUA management in April 2011 and anticipate
 issuing the final report to the NCUA Board in late April or early May 2011.

 Review of Repeat Documents of Resolution
 Recent material loss reviews indicated that requirements included in DORs issued by
 examiners to credit unions to correct significant deficiencies had not been timely
 addressed. For example, the same DOR issues were repeated over several examination
 contacts at the same credit union. We observed during material loss reviews that
 unaddressed DOR requirements were relevant to the issue(s) that led to the failure of credit
 unions. We therefore started this discretionary audit with the objectives to determine (1)
 the process for resolution/closure of DORs and (2) the effectiveness of the current
 resolution process. We anticipate issuing the final report in July 2011.


     Significant Audit Recommendations on which Corrective Action Has Not Been
     Completed

 As of September 30, 2010, there were no significant audit recommendations on reports issued over six
 months ago that have not been either fully implemented or are in the process of implementation.




                                                  17
OIG Semiannual Report                                                         October 1, 2010 – March 31, 2011


     Report On Credit Union Losses Under Materiality Level of $25 Million

 Section 988 of P.L. 111-203, the ―Dodd-Frank Wall Street Reform and Consumer Protection Act‖
 did two things relative to material loss reviews (MLR) of failed credit unions.

 First, the threshold for a mandated material loss review was raised to $25 million or greater loss to
 the National Credit Union Share Insurance Fund (NCUSIF or SIF) starting on the implementation
 date of the Act (July 21, 2010) and going forward.

 Second, the NCUA OIG is now required to (1) perform limited reviews of all credit union failures
 under the threshold to assess whether an in-depth review (consistent with the scope of a material
 loss review) is warranted and (2) report to the National Credit Union Administration Board and the
 Congress every 6 months on the results of the limited reviews and the timeframe for performing any
 in-depth reviews we determine are necessary.

 This report on losses not reaching $25 million covers the six-month period from October 1, 2010 to
 March 31, 2011. For all losses to the SIF under the MLR threshold, we determined (1) why NCUA
 initiated assistance and (2) whether any unusual circumstances existed that might warrant an in-
 depth review of the loss.

 For each limited review, we performed procedures that included but were not limited to: 1) obtaining
 and analyzing the regulator’s supervisory memorandum and other pertinent documents; 2)
 preparing a schedule of CAMEL ratings assigned to the institution through full scope or other
 examinations during the five years preceding the failure; 3) conducting interviews as needed; 4)
 inquiring about any investigative actions that were taken, planned, or considered involving credit
 union officials or others; and 5) analyzing supervisory history and other review methods.

 We conducted limited reviews of seven failed credit unions that incurred losses to the SIF under
 $25 million that occurred between October 1, 2010 and March 31, 2011. Based on those limited
 reviews, we determined that none of the losses warrants additional work. For the seven failed
 credit unions for which we do not intend to conduct additional work, we concluded that either 1) no
 unusual circumstances presented themselves in our review, or 2) we had already addressed the
 reasons identified for failure in recommendations to the agency in our Material Loss Review
 Capping report or other MLR reports.

 The chart below provides details on the seven credit union losses to the NCUSIF of less than $25
 million.   It provides details on the credit union, estimated loss to the SIF, grounds for
 conservatorship or merger, cause of the failure if one occurred, supervision, other factors, and our
 decision to proceed or not with an MLR of the credit union.




                                                    18
OIG Semiannual Report                                                        October 1, 2010 – March 31, 2011


                   DECISIONS REGARDING LOSSES LESS THAN $25 MILLION

                                                           Est.
                                            Date of                    Grounds for the NCUA
 Decision* Credit Union        Region                      Loss to
                                            Failure                    Appointment
                                                           SIF
                                                                Insolvent; poor credit risk, high
                                                                loan delinquency; high loan
           Family First
                                                                charge-offs
Terminate Federal Credit           V         2/15/2011  $21.5 M
                                                                poor loan underwriting, high
             Union
                                                                concentration of unsecured
                                                                loans
                                                                Weak management; low and
                                                                declining net worth position;
                 Oakland
                                                                high loan losses
Terminate       Municipal           II       1/31/2011  $13.7 M
                                                                high delinquency; high
               Credit Union
                                                                operating expenses; negative
                                                                earnings
                The Union                                       Insolvent due to poor
Terminate                          V        10/29/2010   $2,479
               Credit Union                                     underwriting and collections
                                                                Insolvent due to understated
           NYC – OTB                                            delinquency; underfunded
Terminate Federal Credit            I        2/23/2011 $542,000 ALLL;
             Union                                              underwriting deficiencies;
                                                                weak management
                                                                Poor management practices
            Phil-Pet
                                                                related to loan underwriting;
Terminate Federal Credit           IV        9/30/2010 $958,000
                                                                high delinquency and loan
             Union
                                                                losses
                                                                Insolvent due to weak
           Wisconsin                                                management;
Terminate Heights Credit           IV        3/04/2011 $713,000 critically undercapitalized;
              Union                                             poor loan underwriting and
                                                                control
                                                                Insolvent due to weak
                                                                    management;
                 Land of                                        alleged fraud by VP/Loan
Terminate                          V         3/07/2011   $1.1M
               Enchantment                                      Officer; poor loan underwriting
                                                                and high delinquency and
                                                                charge-offs

 *Criteria for the decisions included: (1) dollar value and/or percentage of loss; (2) institutions
 background, such as charter type and history, geographic location, affiliations, business strategy; (3)
 uncommon cause of failure based on prior MLR findings; (4) unusual supervisory history, including the
 nature and timing of supervisory action taken, noncompliance with statutory examination requirements,
 and/or indications of rating disagreements between the state regulator and NCUA; and (5) other, such
 as apparent fraud, request by NCUA Chairman or management, Congressional interest, or IG request.


                                                   19
OIG Semiannual Report                                                       October 1, 2010 – March 31, 2011


     PEER REVIEWS

 October 1, 2010, through March 31, 2011.
 Audit organizations that perform audits and attestation engagements of federal government programs
 and operations are required by Government Auditing Standards to undergo an external peer review
 every three years. The objective of an external peer review is to determine whether, during the period
 under review, the audit organization’s system of quality control was suitably designed and whether the
 audit organization was complying with its quality control system in order to provide the audit
 organization with reasonable assurance of conforming to applicable professional standards.

 External Peer Review of NCUA OIG Office of Audit
 Although we did not have an external Peer Review during the current semi-annual period, the U.S.
 Securities and Exchange Commission (SEC) OIG Office of Audits completed its external peer review of
 the NCUA OIG Office of Audit for the three-year period ending October 31, 2009. The SEC OIG issued
 its ―NCUA System Review Report‖ on May 7, 2010. A copy of the report is included herein as Appendix
 A. In its report, the SEC OIG rendered the opinion that the system of quality control for the NCUA OIG
 audit organization was suitably designed and complied with, to provide the NCUA OIG with reasonable
 assurance of performing and reporting in conformity with applicable professional standards in all
 material respects. Therefore, the NCUA OIG received a peer rating of pass. There are no outstanding
 recommendations from this external peer review.

 External Peer Review of National Science Foundation OIG Office of Audit
 The NCUA OIG did not conduct a peer review of another audit organization during this reporting period.
 However, on February 5, 2009, we issued an external peer review report for the audit function of the
 National Science Foundation (NSF) OIG for the three year period ended September 30, 2008. The
 NSF OIG reported to our office that it does not have any outstanding recommendations related to the
 peer review report.




                                                  20
OIG Semiannual Report                                                         October 1, 2010 – March 31, 2011




                                    INVESTIGATIVE ACTIVITY

 In accordance with professional standards and guidelines established by the Department of Justice, the
 OIG conducts investigations of criminal, civil, and administrative wrongdoing involving agency
 programs, operations and personnel. Our investigative program focuses on activities designed to
 promote accountability, effectiveness, and efficiency, as well as fighting fraud, waste, and abuse in
 agency programs and operations. In addition to our efforts to deter misconduct and promote integrity
 awareness among agency employees, we investigate referrals and direct reports of employee
 misconduct. Investigations may involve possible violations of regulations regarding employee
 responsibilities and conduct, Federal criminal law, and other statutes and regulations pertaining to the
 activities of NCUA employees.

 Moreover, we receive complaints from credit union members and officials that involve NCUA employee
 program responsibilities. We examine these complaints to determine whether there is any indication of
 NCUA employee wrongdoing or misconduct. If not, we refer the complaint to the appropriate regional
 office for response, or close the matter if contact with the regional office indicates that the complaint
 has already been appropriately handled.

     OIG HOTLINE CONTACTS
 The OIG maintains a toll free hotline to enable employees and citizens to call with information about
 suspected waste, fraud, abuse or mismanagement involving agency programs or operations. We also
 receive complaints through an off-site post office box, from electronic mail, and facsimile messages. All
 information received from any of these sources is referred to as a hotline contact. The OIG hotline
 program is handled by our Office Manager, under the direction of our Director of Investigations. The
 majority of hotline contacts are from consumers seeking help with a problem with a credit union. These
 contacts are referred to the appropriate NCUA regional offices for assistance. During this reporting
 period, we referred 127 consumer complaints to NCUA Office of Consumer Protection and regional
 offices. We referred three allegations of potential fraud at credit unions to the NCUA Office of General
 Counsel.

     INVESTIGATIONS

 Bank Fraud
 During the previous reporting period, the OIG received an allegation that a NCUA employee may have
 committed bank fraud. The OIG’s investigation is ongoing.

 Unprofessional Behavior
 During this reporting period, the OIG received an allegation that an NCUA examiner had displayed
 unprofessional behavior while conducting an examination. This investigation is ongoing.

 Standards of Ethical Conduct for Employees of the Executive Branch
 During this reporting period, the OIG received an allegation that an employee was seeking employment
 with a credit union while conducting an examination. This investigation is ongoing.


                                                    21
OIG Semiannual Report                                                       October 1, 2010 – March 31, 2011


 Standards of Ethical Conduct for Employees of the Executive Branch
 During the previous reporting period, the OIG received an allegation that an employee was using his
 position as a Credit Union examiner for private gain. The OIG investigated the matter and found no
 corroborating evidence to support the allegation. The OIG closed the inquiry with an Investigative
 Memorandum to the file.

 Fraud and Related Activity in Connection with Computers
 During the previous reporting period, the OIG received an allegation that an employee had accessed
 the email of another employee without authorization. The OIG investigated the allegation, including a
 forensic analysis of the subject’s computer, and found no evidence to support the allegation. The
 investigation was closed with an Investigative Memorandum to the file.

 Misconduct
 During the current reporting period, the OIG received an allegation of misconduct by two credit union
 examiners. The OIG conducted a preliminary inquiry into the matter and did not develop substantive
 information to warrant further investigation. The matter was referred to the Office of Consumer
 Protection.

 Prohibited Hiring Practices
 During the current reporting period, the OIG received an allegation that an employee was hired under a
 vacancy announcement where the duty station was not listed properly. The OIG’s review of the matter
 did not support the allegation.

 Misuse of Government-Issued Charge Card
 During the current reporting period, the OIG received an allegation that an employee used his
 government-issued charge card for personal expenses in violation of agency policy. The OIG’s
 investigation substantiated the allegation. The investigation also found that the employee had not
 accurately accounted for his transit subsidy reimbursement, an additional violation of agency policy.
 The OIG issued a report of investigation and forwarded it to agency management.




                                                  22
OIG Semiannual Report                                                         October 1, 2010 – March 31, 2011


     PEER REVIEWS

 October 1, 2010, through March 31, 2011.
 Section 6(e)(7) of the Inspector General Act of 1978, as amended, requires those OIGs that have
 been granted statutory law enforcement authorities pursuant to the Act, to be periodically reviewed
 by another OIG or a committee of OIGs (Peer Review). The purpose of the peer review is to
 ascertain whether adequate internal safeguards and management procedures exist to ensure that
 the law enforcement powers conferred by the 2002 amendments to the Act are properly exercised.
 The NCUA OIG does not have statutory law enforcement authority; therefore, our investigation
 organization is not required to have a peer review and, to date, has neither undergone a peer
 review nor conducted a peer review of another OIG. However, the NCUA Office of Investigations
 intends to participate in the peer review process in the future and is scheduled to undergo a peer
 review in the third quarter of 2013.

     .




                                                   23
OIG Semiannual Report                                                                   October 1, 2010 – March 31, 2011




                            LEGISLATIVE AND REGULATORY REVIEWS

 Section 4(a) of the Inspector General Act requires the Inspector General to review existing and
 proposed legislation and regulations relating to the programs and operations of the NCUA and to make
 recommendations concerning their impact.           Moreover, we routinely review proposed agency
 instructions and other policy guidance, in order to make recommendations concerning economy and
 efficiency in the administration of NCUA programs and operations and the prevention and detection of
 fraud, waste and abuse.

 During the reporting period, the OIG reviewed 25 items, including proposed and final legislation,
 proposed and final regulations, NCUA Interpretive Ruling Policy Statements (IRPS) and Letters to
 Credit Unions.

                           SUMMARY OF STATUTES AND REGULATIONS REVIEWED

            Legislation                                               Title
                                  “An Act to Clarify the National Credit Union Administration Authority to Make
       P.L. 111-382               Stabilization Fund Expenditures Without Borrowing From the Treasury”

       S. 300                     “Government Charge Card Abuse Prevention Act of 2011”

       S. 413                     “Cybersecurity and Internet Freedom Act of 2011”

       H.R. 1136                  “Executive Cyberspace Coordination Act of 2011”


         Regulations/Rulings/IRPS                                             Title
                                              Fixed Assets, Member Business Loans, and Regulatory Flexibility
       12 CFR Parts 701, et al.               Program
                                              Prompt Corrective Action; Amended Definition of Low-Risk
       12 CFR Parts 702 et al.                Assets

       12 CFR Part 704                        Corporate Credit Unions; Technical Corrections

       12 CFR Part 701                        The Low-Income Definition
                                              Fiduciary Duties at FCUs; Mergers and Conversions of Insured
       12 CFR Parts 701, 708a, 708b           Credit Unions

       12 CFR Part 707                        Truth in Savings

       IRPS 11-1                              Guidelines for the Supervisory Review Committee

       IRPS 11-2                              Chartering Corporate Credit Unions

       12 CFR Part 740                 Accuracy of Advertising and Notice of Insured Status
                                       Removing References to Credit Ratings in Regulations;
       12 CFR Parts 703, 704, 709, 742 Proposing Alternatives to the Use of Credit Unions

                                                            24
OIG Semiannual Report                                                           October 1, 2010 – March 31, 2011



       12 CFR Part 745                 Share Insurance and Appendix
       12 CFR Parts 741 and 751        Incentive Based Compensation Arrangements
       12 CFR Parts 700, 701, 702, 741 Net Worth and Equity Ratio
       12 CFR Part 741                 Interest Rate Risk

       Letters to Credit Unions                                     Title

       11-CU-0255 (03/2011)       Conflict of Interest of FCU Employee

       11-CU-0204 (03/2011)       Conflict of Interest of FCU Director

       11-CU-0344 (03/2011)       NCUA Rulemakings on Director Duties

       11-CU-0152 (03/2011)       Training Reimbursement to CU Officials

       10-CU-1169 (01/2011)       Request for Advisory Opinion—Correspondent Services
                                  FCU Compliance with 202.6(b)(6) of the Federal Reserve Board’s
       10-CU-0974 (10/2010)       Regulation B (Reg B)
                                  Disclosing Credit Life Insurance Conversion to Debt Cancellation
       10-CU-0984 (10/2010)       Coverage




                                                     25
OIG Semiannual Report                                                            October 1, 2010 – March 31, 2011




                             TABLE I: INSPECTOR GENERAL ISSUED REPORTS
                                        WITH QUESTIONED COSTS

                                                              Number of Questioned    Unsupported
                                                               Reports    Costs          Costs


                For which no management decision
           A.   had been made by the start of the
                reporting period.                                0          $0              $0

           B.   Which were issued during the
                reporting period.                                0          0                0



                Subtotals (A + B)                                0          0

           C.   For which management decision was
                made during the reporting period.                0          0                0



                (i) Dollar value of disallowed costs             0          0                0

                (ii) Dollar value of costs not allowed
                                                                 0          0                0
                For which no management decision
           D.   has been made by the end of the
                reporting period.                                0          0                0
                Reports for which no management
           E.   decision was made within six months
                of issuance.                                     0          0                0

 Questioned costs are those costs the OIG has questioned because of alleged violations of laws,
 regulations, contracts, or other agreements; findings which at the time of the audit are not supported by
 adequate documentation; or the expenditure for the intended purpose is unnecessary or unreasonable.

 Unsupported costs (included in "Questioned Costs") are those costs the OIG has questioned because
 of the lack of adequate documentation at the time of the audit.




                                                         26
OIG Semiannual Report                                                       October 1, 2010 – March 31, 2011




                         TABLE II: INSPECTOR GENERAL ISSUED REPORTS WITH
                        RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                                                                    Number of          Dollar
                                                                     Reports           Value


                 For which no management decision had been
           A.
                 made by the start of the reporting period.             0                $0


           B.    Which were issued during the reporting period.         0                 0



                                    Subtotals (A + B)                   0                 0



                 For which management decision was made
           C.
                 during the reporting period.                           0                 0


                 (i) Dollar value of recommendations agreed to
                 by management.                                        N/A              N/A


                 (ii) Dollar value of recommendations not agreed
                 to by management.                                     N/A              N/A


                 For which no management decision was made
           D.
                 by the end of the reporting period.                    0                 0


                 For which no management decision was made
           E.
                 within six months of issuance.                         0                 0

 Recommendations that "Funds to be Put to Better Use" are those OIG recommendations that funds
 could be used more efficiently if management took actions to reduce outlays, de-obligate funds from
 programs/operations, avoid unnecessary expenditures noted in pre-award reviews of contracts, or any
 other specifically identified savings.




                                                    27
OIG Semiannual Report                                                       October 1, 2010 – March 31, 2011




                                   TABLE III: SUMMARY OF OIG ACTIVITY
                                     October 1 through March31, 2011

                                   PART I – AUDIT REPORTS ISSUED

  Report                                                                                       Date
  Number                                           Title                                      Issued

 OIG-10-16        Material Loss Review of St. Paul Croatian FCU                             10/07/2010

 OIG-10-17        Material Loss Review of U.S. Central FCU                                  10/18/2010

 OIG-10-18        Independent Evaluation of the NCUA’s Compliance with FISMA 2010           11/15/2010

 OIG-10-19        Material Loss Review of Western Corporate (WesCorp) FCU                   11/16/2010

 OIG-10-20        OIG Capping Report on Material Loss Reviews                               11/23/2010
                        PART II – AUDITS IN PROGRESS (as of March 31, 2011)


 NCUA Financial Statements Audit 2010

 Material Loss Review of Constitution Corporate FCU

 Material Loss Review of Members United Corporate

 Material Loss Review of Southwest Corporate FCU

 Material Loss Review of Beehive CU

 Material Loss Review of Certified FCU

 Review of Building Security At NCUA’s Central Office

 Review of Repeat Documents of Resolution




                                                   28
OIG Semiannual Report                                                            October 1, 2010 – March 31, 2011




                                  INDEX OF REPORTING REQUIREMENTS


    Section                                     Data Required                                       Page
                                                                                                     Ref

    4(a)(2)     Review of legislation and regulations                                                 24
                Significant problems, abuses, or deficiencies relating to the administration of
    5(a)(1)     programs and operations disclosed during the reporting period.                        12
                Recommendations with respect to significant problems, abuses or
    5(a)(3)     deficiencies                                                                          12
                Significant recommendations described in previous semiannual reports on
    5(a)(3)     which corrective action has not been completed.                                       17
                Summary of matters referred to prosecution authorities and prosecutions
    5(a)(4)     which have resulted.                                                               None
                Summary of each report to the Board detailing cases where access to all
    5(a)(5)     records was not provided or where information was refused.                         None

    5(a)(6)     List of audit reports issued during the reporting period.                             28

    5(a)(7)     Summary of particularly significant reports.                                          12

    5(a)(8)     Statistical tables on audit reports with questioned costs.                            26
                Statistical tables on audit reports with recommendations that funds be put to
    5(a)(9)     better use.                                                                           27
                Summary of each audit report issued before the start of the reporting period
                for which no management decision has been made by the end of the
    5(a)(10)    reporting period.                                                                  None
                Description and explanation of reasons for any significant revised
    5(a)(11)    management decision made during the reporting period.                              None
                Information concerning significant management decisions with which the
    5(a)(12)    Inspector General is in disagreement.                                              None
                An appendix containing the results of any peer review conducted by another
                OIG during the reporting period or, if no peer review was conducted within
                that reporting period, a statement identifying the date of the last peer review
    5(a)(14)    conducted by another OIG.                                                             20
                List of outstanding recommendations from any peer review conducted by
    5(a)(15)    another OIG that have not been fully implemented.                                  None
                A list of any peer reviews conducted by the IG of another OIG during the
                reporting period, including a list of any outstanding recommendations made
    5(a)(16)    that remain outstanding or have not been fully implemented.                        None




                                                        29
OIG Semiannual Report                                         October 1, 2010 – March 31, 2011


             APPENDIX A: NCUA SYSTEM REVIEW REPORT (SEC OIG REPORT NO. 478)




                                           30
OIG Semiannual Report        October 1, 2010 – March 31, 2011




                        31
OIG Semiannual Report        October 1, 2010 – March 31, 2011




                        32
OIG Semiannual Report        October 1, 2010 – March 31, 2011




                        33
OIG Semiannual Report        October 1, 2010 – March 31, 2011




                        34
